No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DEB HAALAND, SECRETARY OF THE INTERIOR, ET AL.,
PETITIONERS
v.
CHAD EVERET BRACKEEN, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI (APPENDIX FILED SEPARATELY), via email and
first-class mail, postage prepaid, this 3rd day of September 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 8,898 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare under
penalty of perjury that the foregoing is true and correct. Executed on
September 3, 2021.

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 3, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management, Office of
the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s
phone number is (202) 514-2217 or 2218. Thank you for your consideration of this request.

DEB HAALAND, SECRETARY OF THE INTERIOR, ET AL.,

UNITED STATES HOUSE OF REPRESENTATIVES
MATTHEW D. MCGILL
GIBSON, DUNN & CRUTCHER, LLP
1050 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036-5306
202-886-3680
MMCGILL@GIBSONDUNN.COM
BETH ELLEN KLUSMANN
OFFICE OF THE ATTORNEY GENERAL
OF TEXAS
OFFICE OF THE SOLICITOR GENERAL
OF TEXAS
PO BOX 12548 (MC 059)
AUSTIN, TX 78711-2548
512-936-1700
BETH.KLUSMANN@OAG.TEXAS.GOV
IAN HEATH GERSHENGORN
JENNER & BLOCK LLP
1099 NEW YORK AVENUE, NW
WASHINGTON, DC 20001
202-639-6000
IGERSHENGORN@JENNER.COM
PAUL W. SPRUHAN
NAVAJO NATION DEPARTMENT
OF JUSTICE
LITIGATION AND EMPLOYMENT UNIT
PO BOX 2010
WINDOW ROCK, AZ 86515
928-871-6210
PASPRUHAH@NNDOJ.GOV

